HHS/OIG Audit: Review of Medicare Payments for Beneficiaries with Institutional Status-Inter Valley Health Plan, Pomona, California, (A-05-01-00096)
Department
of Health and Human Services
Review of Medicare Payments for Beneficiaries with Institutional Status -
Inter Valley Health Plan, Pomona, California
(A-05-01-00096)
May 23, 2002
Complete
Text of Report is available in PDF format (207kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to determine if payments to Inter Valley Health Plan (Contract H0545) were
appropriate for beneficiaries reported as institutionalized.  The final
report points out that Inter Valley received Medicare overpayments totaling
$319,355 for 27 beneficiaries incorrectly reported as institutionalized during
the period January 1, 1998 through December 31, 2000.  Twenty-six of the
identified beneficiaries were residents of domiciliary facilities that did not
qualify a beneficiary for institutional status.  Inter Valley should not
have received payment at the enhanced institutional rate.